No. 19-763
In the

Supreme Court of the United States
__________________

RICHARD C. ANGINO, ET UX.,
Petitioners,
v.
TRANSUNION LLC,
Respondent.
__________________
On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Third Circuit

__________________
BRIEF IN OPPOSITION
__________________
Camille R. Nicodemus
Counsel of Record
SCHUCKIT & ASSOCIATES PC
Robert J. Schuckit
Justin T. Walton
4545 Northwestern Drive
Zionsville, IN 46077
(317) 363-2400
rschuckit@schuckitlaw.com
cnicodemus@schuckitlaw.com
jwalton@schuckitlaw.com
Attorney for Respondent
Trans Union, LLC
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
QUESTIONS PRESENTED
1. Whether the Supreme Court Should Review The
Third Circuit’s Decision Affirming Summary
Judgment In Trans Union’s Favor Merely Because
The Statute At Issue – 15 U.S.C. §1681 et seq., The
Fair Credit Reporting Act (“FCRA”) – Is
Theoretically Relevant To Any Consumer, Where
Petitioners Fail To Identify Any Conflict Between
The Third Circuit and Any Other Circuit or This
Court In Its Application Of Settled FCRA Law To
Hold That Petitioners’ FCRA Claims Fail In the
Absence of the Required Element of Inaccuracy?
2. Whether The Supreme Court Should Review The
Third Circuit’s Decision Affirming Summary
Judgment In Trans Union’s Favor Where
Petitioners Incorrectly Claim That The Court Held
That Only Consumer Disclosures And Not
Consumer Reports Are Subject To The FCRA’s
Provisions Relating to Accuracy, When The District
Court Held The Opposite And The Third Circuit
Affirmed?
3. Whether The Supreme Court Should Review The
Third Circuit’s Decision Affirming Summary
Judgment in Trans Union’s Favor Where
Petitioners Incorrectly Claim That The Court Held
That The FCRA Does Not Require CRA’s To
Disclose “Key Factors” That Affect A Consumer’s
Credit Score, When The District Court Held The
Opposite and The Third Circuit Affirmed And
Where Petitioners Argue For The First Time,
Without Authority, That The FCRA Should Also

ii
Require Credit Reporting Agencies to Disclose
“Algorithms” Used To Calculate Credit Scores?
4. Whether The Supreme Court Should Review The
District Court’s Decision Holding That Petitioners
Filed Their Complaint In Bad Faith Pursuant To
The Fee-Shifting Provision Of 15 U.S.C. §1681n(c)
Where The Issue Is Not Ripe For Appeal Because
Petitioners’ Appeal Of The District Court’s Decision
Is Pending In The Third Circuit and May Be Stayed
Based On Petitioners’ Bankruptcy Filing?
5. Whether The Supreme Court Should Review The
District Court’s Decision Holding That Petitioners
Filed Their Complaint In Bad Faith Pursuant To
The Fee-Shifting Provision Of 15 U.S.C. §1681n(c)
Where The Petition Alleges No Conflict Between
The Third Circuit And Any Other Circuit Or This
Court And The Petitioners Improperly Seek Review
Of The Lower Court’s Correct Finding Of Fact That
Petitioners Filed Their Complaint In Bad Faith?

iii
SUPREME COURT RULE
29.6.CORPORATE DISCLOSURE STATEMENT
Defendant Trans Union LLC, by counsel, pursuant
to Supreme Court Rule 29.6, states as follows:
TransUnion LLC discloses that the following parent
corporations and publicly held companies own 10% or
more of its stock: Trans Union LLC is a wholly owned
subsidiary of TransUnion Intermediate Holdings, Inc.
TransUnion Intermediate Holdings, Inc. is wholly
owned by TransUnion. TransUnion is a publicly traded
entity with the ticker symbol TRU. Investment funds
affiliated with T. Rowe Price Group, Inc., a publiclytraded entity with the ticker symbol TROW, own more
than 10 percent of TransUnion’s stock.

iv
TABLE OF CONTENTS
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . i
SUPREME COURT RULE 29.6.CORPORATE
DISCLOSURE STATEMENT . . . . . . . . . . . . . . iii
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . vii
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . 1
REASONS FOR DENYING THE PETITION. . . . . . 3
A. The Supreme Court Should Decline To Review
The Third Circuit’s Decision Affirming Summary
Judgment In Trans Union’s Favor Because The
Mere Theoretical Scope of the FCRA Does Not
Warrant Review Of The Third Circuit’s Decision
On An FCRA Claim, Where Petitioners Fail To
Identify Any Conflict Between The Third Circuit
and Any Other Circuit or This Court In Its
Application Of Settled FCRA Law To Hold That
Petitioners’ FCRA Claims Fail In the Absence of
the Required Element of Inaccuracy.. . . . . . . . . . 3
B. The Supreme Court Should Decline To Review
The Third Circuit’s Decision Affirming Summary
Judgment In Trans Union’s Favor Where
Petitioners Incorrectly Claim That The Court
Held That Only Consumer Disclosures And Not
Consumer Reports Are Subject To The FCRA’s
Provisions Relating to Accuracy When The
District Court Held The Opposite And The Third
Circuit Affirmed. . . . . . . . . . . . . . . . . . . . . . . . . . . 5

v
C. The Supreme Court Should Decline To Review
The Third Circuit’s Decision Affirming Summary
Judgment in Trans Union’s Favor Where
Petitioners Incorrectly Claim That The Court
Held That The FCRA Does Not Require CRA’s
To Disclose “Key Factors” That Affect A
Consumer’s Credit Score, When The District
Court Held The Opposite and The Third Circuit
Affirmed And Where Petitioners Argue For The
First Time, Without Authority, That The FCRA
Should Require Credit Reporting Agencies to
Disclose “Algorithms” Used To Calculate Credit
Scores. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
D. The Supreme Court Should Decline To Review
The District Court’s Holding That Petitioners
Filed Their Complaint In Bad Faith Pursuant To
The Fee-Shifting Provision Of 15 U.S.C.
§1681n(c) Where The Issue Is Not Ripe For
Appeal Because Petitioners’ Appeal Of The
District Court’s Decision Is Pending In The
Third Circuit and May Be Stayed Based On
Petitioners’ Bankruptcy Filing. . . . . . . . . . . . . . 10

vi
E. The Supreme Court Should Decline To Review
The District Court’s Decision Holding That
Petitioners Filed Their Complaint In Bad Faith
Pursuant To The Fee-Shifting Provision Of 15
U.S.C. §1681n(c) For The Additional Reason
That The Petition Alleges No Conflict Between
The Third Circuit’s Decision And Any Decision
Of Another Circuit Court Or This Court And The
Petitioners Improperly Seek Review Of The
Lower Court’s Correct Finding Of Fact
That Petitioners Filed Their Complaint In Bad
Faith. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14

vii
TABLE OF AUTHORITIES
CASES
Cardinale v. Louisiana,
394 U.S. 437, 89 S.Ct. 1161, 22 L.Ed.2d 398
(1969). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
Clingman v. Beaver,
544 U.S. 581 (2005). . . . . . . . . . . . . . . . . . . . . . 6, 7
Cortez v. Trans Union, LLC,
617 F.3d 688 (3d Cir. 2010) . . . . . . . . . . . . . . . . . 6
Cushman v. Trans Union Corp.,
115 F.3d 220 (3d Cir. 1997) . . . . . . . . . . . . . . . . . 6
Philbin v. Trans Union Corp.,
101 F.3d 957 (3d Cir. 1996) . . . . . . . . . . . . . . . . . 6
STATUTES
11 U.S.C. §362 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
15 U.S.C. §1681e(b) . . . . . . . . . . . . . . . . . . . . . . . . . . 4
15 U.S.C. §1681i(a) . . . . . . . . . . . . . . . . . . . . . . . . . . 4
15 U.S.C. §1681n(c) . . . . . . . . . . . . . . . . . . . . . . 10, 11
RULES
Fed. R. Civ. P. 11 . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
Pa. R.P.C. 31. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
Sup. Ct. R. 10 . . . . . . . . . . . . . . . . . . . . . . . . . . passim

1
STATEMENT OF THE CASE
Petitioner Richard Angino, an attorney proceeding
pro se and representing his wife, Petitioner Alice
Angino, were engaged in various business ventures,
including commercial real estate investments when
they experienced serious financial setbacks during the
recession and collapse of the real estate market in
2008. Their circumstances worsened in 2010 when
Santander Bank “called” Petitioners’ loans totaling
more than $6.3 million. Petitioners’ inability to pay
resulted in a $6.3 million judgment against them in
favor of Santander Bank and their credit rating
suffered due to late payments reported to Trans Union
by Santander Bank, Wells Fargo and American Honda.
See Angino v. Trans Union, LLC, 2018 WL 6042901
(M.D. Pa. Nov. 19, 2019) (referring to “undisputed facts
taken from the record”), Appendix (“App.”), p. 10 and
Angino v. Trans Union, LLC, 784 Fed. Appx. 67 (3rd
Cir. 2019), App., p. 2.
Petitioners filed lawsuits against Santander Bank
and Wells Fargo in connection with their debts and
lost, and Petitioners have conceded they made late
payments on those accounts and on the American
Honda account. Id. Petitioners’ Complaint against
Trans Union alleged Fair Credit Reporting Act claims,
which were undeniably frivolous because Petitioners
knew that their late payments prevented them from
establishing the required element of an “inaccuracy”
under the FCRA.
The District Court granted Trans Union’s Motion
For Summary Judgment on the grounds that there was
no material dispute of fact as to the accuracy of Trans

2
Union’s reporting and the Third Circuit affirmed.
Appendix (“App.”), pp. 1, 9. The Third Circuit provided
that “[t]his disposition is not an opinion of the full
Court and pursuant to I.O.P. [Internal Operating
Procedure] 5.7 does not constitute binding precedent.”
App., p. 6. Third Circuit Rule 5.3 provides that nonprecedential opinions generally only have value to the
trial court or the parties. The Supreme Court should
decline to exercise its discretion to review the Third
Circuit’s opinion on this basis alone.
Petitioners filed a Motion For Rehearing in the
Third Circuit, which was denied. See Third Circuit,
Doc. No. 003113344519.
The Petition For Writ Of Certiorari should be
denied, as set forth more fully below, because:
i)

Petitioners identify no conflict between any
part of the Third Circuit’s decision applying
well-settled law interpreting the FCRA and
any other Circuit Court or this Court;

ii)

Petitioners improperly seek appellate
“review” of holdings that the Third Circuit
did not make;

iii)

Petitioners improperly proffer arguments
made for the first time in their Petition for
Writ of Certiorari;

iv)

Petitioners improperly seek review of
findings of facts made by the District Court
and reviewed and affirmed by the Third
Circuit; and

3
v)

the District Court’s decision on Trans
Union’s Motion For Attorneys’ Fees is not
ripe for appellate review where Petitioners’
Appeal of the District Court’s decision is
pending in the Third Circuit and may be
stayed pending disposition on Petitioners’
Bankruptcy Petition.

REASONS FOR DENYING THE PETITION
A. The Supreme Court Should Decline To Review
The Third Circuit’s Decision Affirming
Summary Judgment In Trans Union’s Favor
Because The Mere Theoretical Scope of the
FCRA Does Not Warrant Review Of The Third
Circuit’s Decision On An FCRA Claim, Where
Petitioners Fail To Identify Any Conflict
Between The Third Circuit and Any Other
Circuit or This Court In Its Application Of
Settled FCRA Law To Hold That Petitioners’
FCRA Claims Fail In the Absence of the
Required Element of Inaccuracy.
Petitioners seek Supreme Court review of the Third
Circuit’s Decision that affirmed Summary Judgment in
Trans Union’s favor, for the “reason” that the FCRA,
theoretically, “affects hundreds of millions of
individuals.” Petitioners’ Brief (“Pet. Br.”), p. 11.
Petitioners make no argument whatsoever in support
of this bald statement that the mere potential scope of
a statute warrants Supreme Court review of any
decision interpreting that statute. Id. While the
provisions of the FCRA theoretically are relevant to
many consumers, such does not warrant review of the
Third Circuit’s decision on Petitioners’ FCRA claim,

4
where Petitioners fail to identify a conflict between the
Circuit Court’s decision and the decision of any other
Circuit Court or this Court. Pet. Br., generally; United
States Supreme Court Rule 10.
The Third Circuit decision appealed by Petitioners
involved the application of well-settled FCRA law to
dismiss Petitioners’ FCRA claims in light of Petitioners’
failure to proffer any evidence of the required element
of “inaccuracy.” App., pp. 3-4. The Third Circuit set
forth the requirement, clearly provided in the FCRA
and applicable caselaw, that in order “[t]o prevail
under either claim [§1681e(b) (reasonable procedures)
or §1681i(a) (reasonable reinvestigation)] the Anginos
must show that their credit report contains inaccurate
information.” App., p. 4 (relying on the text of the
FCRA and Third Circuit precedent). Petitioners do not
identify any decision from another Circuit Court or this
Court that holds otherwise as to this required element
of an FCRA claim. Pet. Br., generally. The District
Court made the finding that “Plaintiffs, by their own
admissions, cannot satisfy the threshold element of
inaccuracy.” App., p. 15. The Third Circuit upheld the
factual finding made by the District Court that
Petitioners had failed to make the required showing of
an inaccuracy on their Trans Union credit report,
finding that “[t]hey have failed to do this.” App., p. 2.
The Supreme Court should deny the Petition
because Petitioners do not identify any conflict between
the Third Circuit decision applying well-settled FCRA
law and any other Circuit Court or this Court on the
issue of the required element of an inaccuracy or any

5
other issue arising from the decision below. Pet. Br.,
generally; United States Supreme Court Rule 10.
B. The Supreme Court Should Decline To Review
The Third Circuit’s Decision Affirming
Summary Judgment In Trans Union’s Favor
Where Petitioners Incorrectly Claim That The
Court Held That Only Consumer Disclosures
And Not Consumer Reports Are Subject To
The FCRA’s Provisions Relating to Accuracy
When The District Court Held The Opposite
And The Third Circuit Affirmed.
Petitioners seek review of the Third Circuit’s
Decision affirming Summary Judgment in Trans
Union’s favor, and wrongly contend that the Third
Circuit held that “only consumer reports and scores
(supplied to individuals seeking credit) and not creditor
customer reports and scores (provided for a fee to
entities that extend or deny credit) are to be considered
for accuracy and conformity to the FCRA.” Pet. Br.,
p. 12. In fact, the District Court held the opposite,
namely that, “FCRA’s accuracy requirement pertains
to the preparation of ‘consumer reports’ not to
consumer disclosures.” App., p. 15. Petitioners
incorrectly use the term “consumer reports” when they
mean “consumer disclosures,” as they identify such as
the document “supplied to individuals seeking credit.”
The District Court held that “the disclosures Plaintiffs
obtained [do not] fall within the FCRA’s definition of
‘consumer reports,’” and that “there is no genuine issue
of material fact concerning the accuracy of the
information included in [Petitioners’] consumer credit
reports.” App., p. 15. Summary Judgment was

6
granted in Trans Union’s favor and affirmed by the
Third Circuit applying a holding opposite to that
objected to by Petitioners. App., p. 2. The Supreme
Court should decline to hear Petitioners’ appeal of a
holding that the Circuit Court did not make. See
Clingman v. Beaver, 544 U.S. 581, 598 (2005) (“[w]e
ordinarily do not consider claims neither raised nor
decided below.”)
Petitioners attempt to manufacture a conflict
between the Third Circuit’s findings here and its
decisions in three prior cases, claiming that the Third
Circuit “incorrectly distinguished the present case”
from three Third Circuit FCRA decisions, Cortez v.
Trans Union, LLC, 617 F.3d 688 (3d Cir. 2010), Philbin
v. Trans Union Corp., 101 F.3d 957 (3d Cir. 1996) and
Cushman v. Trans Union Corp., 115 F.3d 220 (3d Cir.
1997), in each of which the plaintiff established that
inaccurate adverse credit information resulted in
damage to plaintiff’s credit. Pet. Br., pp. 12-18.
However, the Third Circuit correctly distinguished
those cases on the basis that “[i]n each of those cases,
the plaintiff identified inaccurate information on their
reports, [and] [t]he Anginos identify no such incorrect
information here.” App., p. 5. In support of their
Petition for Supreme Court review, Petitioners proffer
nothing more than the same bald contention that “this
case does in fact contain inaccuracies as defined by the
FCRA,” without identifying any actual inaccuracies
and no conflict amongst the Third Circuit’s FCRA
decisions exists. Pet. Br., p. 18.

7
Petitioners also attempt to manufacture an error by
the Third Circuit, contending that credit reports
prepared by Trans Union contained “misleading”
information relating to the “key factors” that affect a
consumer’s credit score and that the Third Circuit
disregarded this claim. Pet. Br., p. 18. However, the
District Court did address the issue and found that key
factors “are not part of the ‘information’ contained in
Plaintiffs’ consumer reports” and thus not subject to
the accuracy requirements of the FCRA. App., pp. 1415. The Third Circuit declined to reach this claim
stating that “we need not reach that question, because
the Anginos have failed to present facts suggesting that
the key factors are inaccurate.” App., p. 5. The
Supreme Court should decline to review a question not
reached by the Court below. See Clingman, 544 U.S. at
598.
The Supreme Court should decline to review the
Third Circuit’s decision where Petitioners incorrectly
state the Third Circuit’s holding, fail to identify any
decision from another Circuit Court or this Court that
holds otherwise, and improperly seek review of an
issue not reached by the Court below. See United
States Supreme Court Rule 10.

8
C. The Supreme Court Should Decline To Review
The Third Circuit’s Decision Affirming
Summary Judgment in Trans Union’s Favor
Where Petitioners Incorrectly Claim That The
Court Held That The FCRA Does Not Require
CRA’s To Disclose “Key Factors” That Affect A
Consumer’s Credit Score, When The District
Court Held The Opposite and The Third
Circuit Affirmed And Where Petitioners Argue
For The First Time, Without Authority, That
The FCRA Should Require Credit Reporting
Agencies to Disclose “Algorithms” Used To
Calculate Credit Scores.
Petitioners seek review of the Third Circuit’s
purported “error” in setting forth the FCRA’s
requirement that Credit Reporting Agencies (“CRA’s”)
disclose to Petitioners the “key factors” used to
calculate credit scores. Pet. Br., p. 20. Petitioners
wrongly contend that the Third Circuit “did not require
[Trans Union] to do so.” Id. In fact, the Third Circuit,
relying on the text of the FCRA, held that “[w]hen
disclosing a credit score, Trans Union must also
disclose any ‘key factor’ that adversely affected the
credit score’s calculation.” App., p. 3. Petitioners
identify no decision from a Circuit Court or this Court
that holds otherwise. Pet. Br., generally. The Third
Circuit further made the factual finding that “[t]he
Anginos variously argue that, in addition to providing
misleading key factors, Trans Union failed to include
relevant key factors, but they fail to identify which key
factors should have been included or which documents
are missing them.” App., p. 5, n.11.

9
Petitioners appear to seek the Supreme Court’s
assistance in expanding the plain language of the
FCRA to add a requirement that CRA’s disclose
“algorithms” used to calculate credit scores. Pet. Br.,
p. 19-20. However, aside from failing to cite any
authority whatsoever for this request, see Pet. Br.,
generally, Petitioners never made any such argument
to the District Court or the Third Circuit and this
Court should decline to decide issues raised for the first
time in a Petition For Writ of Certiorari. Cardinale v.
Louisiana, 394 U.S. 437, 89 S.Ct. 1161, 22 L.Ed.2d 398
(1969).
Petitioners also improperly seek review of the Third
Circuit’s findings of fact that the key factors disclosed
by Trans Union were not inaccurate and that Trans
Union did not fail to disclose relevant key factors. Pet.
Br., p. 20. See United States Supreme Court Rule 10.
The Third Circuit affirmed the District Court’s findings
of fact as to key factors, noting that “the Anginos have
failed to present facts suggesting that the key factors
are inaccurate” and that “they fail to identify which key
factors should have been included or which documents
are missing them.” App., p. 5 & n.11. In support of
their Petition, Petitioners proffer nothing more than
the same bald contention that “this case does in fact
contain inaccuracies as defined by the FCRA,” without
identifying any actual inaccuracies. Pet. Br., p. 18.
The Court should decline to review the District
Court’s finding that Trans Union complied with the
FCRA’s requirements relating to “key factors,” where
Petitioners incorrectly state the Third Circuit’s holding,
fail to identify any decision from another Circuit Court

10
or this Court that holds otherwise, and improperly seek
review of a finding of fact, without pointing to any facts
in the record upon which a different outcome could be
based. See United States Supreme Court Rule 10.
D. The Supreme Court Should Decline To Review
The District Court’s Holding That Petitioners
Filed Their Complaint In Bad Faith Pursuant
To The Fee-Shifting Provision Of 15 U.S.C.
§1681n(c) Where The Issue Is Not Ripe For
Appeal Because Petitioners’ Appeal Of The
District Court’s Decision Is Pending In The
Third Circuit and May Be Stayed Based On
Petitioners’ Bankruptcy Filing.
Petitioners seek Supreme Court review of the
District Court’s decision granting Trans Union’s Motion
For Attorneys’ Fees pursuant to the fee-shifting
provision of the FCRA. Pet. Br., pp. 20-23 and District
Court Order, Doc. No. 75, at App., p. 20-29.
On December 16, 2019, Petitioners filed a Notice of
Appeal to the Third Circuit seeking review of the
District Court’s decision holding that Trans Union was
entitled to attorneys’ fees and review of the District
Court’s subsequent Order, Doc. No. 79, that partially
awarded Trans Union’s proposed fee amount. See
Notice of Appeal, District Court Doc. No. 80.
On January 20, 2020, prior to filing their Brief to
the Third Circuit which was due on February 10, 2020,
Petitioners filed a Motion To Stay the Appeal
predicated on Petitioners’ having filed for bankruptcy
on January 6, 2020. See Petitioners’ Motion To Stay,
Third Circuit Doc. No. 12-1. That Motion is pending

11
but is likely to be granted pursuant to the automatic
stay provisions of the Bankruptcy Code. 11 U.S.C.
§362.
This Court should decline to review the District
Court’s decision applying the FCRA fee-shifting
provision and award of attorneys’ fees to Trans Union
because these issues are not ripe for appeal until
Petitioners’ Appeal to the Third Circuit has been heard
and decided. See United States Supreme Court Rule
10.
E. The Supreme Court Should Decline To Review
The District Court’s Decision Holding That
Petitioners Filed Their Complaint In Bad
Faith Pursuant To The Fee-Shifting Provision
Of 15 U.S.C. §1681n(c) For The Additional
Reason That The Petition Alleges No Conflict
Between The Third Circuit’s Decision And
Any Decision Of Another Circuit Court Or
This Court And The Petitioners Improperly
Seek Review Of The Lower Court’s Correct
Finding Of Fact That Petitioners Filed Their
Complaint In Bad Faith.
The Supreme Court should deny the Petition
because Petitioners do not identify any conflict between
the Third Circuit’s decision and any decision of another
Circuit Court or this Court relating to the District
Court’s interpretation of the FCRA’s fee-shifting
provision. Pet. Br., pp. 20-23. See United States
Supreme Court Rule 10.
The Supreme Court should deny the Petition for the
additional reason that it improperly seeks review of a

12
finding of fact of a lower court. Id. Petitioners contend
that the District Court erred in awarding attorneys’
fees to Trans Union based on its finding that the
Complaint was meritless at the time of filing. Pet. Br.,
p. 21. The District Court correctly held that Petitioners
filed their Complaint in bad faith “because they alleged
a violation of the FCRA when they knew their credit
report to be accurate . . . and so cannot ‘satisfy the
threshold element of inaccuracy of a [FCRA] claim.’”
App., p. 25. Petitioners ask this Court to consider their
bald claim – rejected by the District Court – that “there
were factual and legal bases for filing the Complaint.”
Id., 22. The District Court found otherwise, based on
“supporting depositions and other documents, from
both Plaintiffs, evidencing their knowledge of accurate
credit reporting and improper purpose for filing.” App.,
p. 27. The Supreme Court should decline to review a
finding of fact made by the District Court, particularly
where Petitioners make only the bald claim that it was
incorrect, without pointing to any evidence in the
record. Pet. Br., p. 22; United States Supreme Court
Rule 10.
Petitioners appear to object to the District Court’s
application of the “ordinary meaning” of “bad faith” in
the context of the FCRA’s fee-shifting provision, a
standard that requires a finding either that the party
essentially knew the claim to be meritless at the time
of filing or that the party filed an action that was
frivolous or without foundation. Pet. Br., p. 20-21;
App., p. 24. Petitioners make no attempt to explain
why the District Court should have used any other
standard for determining “bad faith” nor do they
explain how a different standard would have

13
warranted a different outcome, where the District
Court found that Petitioners’ express admissions
supported a finding that they acted knowingly. Pet.
Br., pp. 20-23; App., p. 25.
The Supreme Court should also decline to review
the District Court’s finding of fact that Petitioners
acted in bad faith, where they did not bring their FCRA
claim in a good faith effort to extend the law. App.,
p. 25, n.1. Petitioners object to the District Court’s
factual finding that Petitioners made no good faith
effort to extend the law and Petitioners cite to Rule 3.1
of the Pennsylvania Rules of Professional Conduct and
Rule 11 of the Federal Rules of Civil Procedure. Pet.
Br., pp. 21-23. These Rules merely provide that an
attorney may file an action in a good faith attempt to
modify or extend existing law. Pa. R.P.C. 31; Fed. R.
Civ. P. 11. The District Court made a factual finding
that Petitioners did no such thing, stating that
Petitioners “cite no legislative history to persuade us
that the legislature intended their claim to be
actionable, nor do they provide any of their own
reasoning in support [and] we find that Plaintiffs
present nothing upon which we could base a conclusion
that they brought this claim in a good faith attempt to
extend the scope of the FCRA.” App., p. 25, n.1. The
Supreme Court should decline to review this factual
finding of the District Court, particularly where
Petitioners proffer nothing more than the same bald
contention that they “made good faith arguments to
extend or change the law” without identifying any such
arguments made to the District Court below. Pet. Br.,
p. 22-23.

14
CONCLUSION
For the foregoing reasons, the petition for a writ of
certiorari should be denied.
Respectfully submitted,
Camille R. Nicodemus
Counsel of Record
SCHUCKIT & ASSOCIATES PC
Robert J. Schuckit
Justin T. Walton
4545 Northwestern Drive
Zionsville, IN 46077
(317) 363-2400
rschuckit@schuckitlaw.com
cnicodemus@schuckitlaw.com
jwalton@schuckitlaw.com
Attorney for Respondent
Trans Union, LLC
February 14, 2020

